                                                                                 I
                                                                                 I U:JL
                                                                                   ±r-Ht3-
                                                                                    I:B                       Irr'



DOE F 1325.8
(08-93)
United States Government                                                               Department of Energy


memorandum
       DATE:      July 9, 2004                                      Audit Report Number: OAS-L-04-17
  REPLY TO
    ATTN OF:      IG-35 (A04DC008)

    SUBJECT: Audit Report on "The National Nuclear Security Administration's High Explosives
             Manufacturing and Weapons Assembly/Disassembly Readiness Campaign"
           To:    Deputy Administrator for Defense Programs, National Nuclear Security Administration

                  INTRODUCTION AND OBJECTIVE

                  The High Explosives Manufacturing and Weapons Assembly/Disassembly Readiness
                  Campaign (Campaign) was established to assure that the Nuclear Weapons Complex is
                  fully ready to support mission and workload requirements associated with the production of
                  high explosive components, requalification of weapon components for reuse, and the
                  assembly and disassembly of war reserve nuclear weapons. The goal of the Campaign is to
                  achieve production readiness by: (1) enhancing existing capabilities; (2) deploying new
                  capabilities; (3) modernizing processes and facilities to establish the required capacity; and
                  (4) using science based design, engineering, and manufacturing capabilities to achieve
                  better integration across the complex, higher efficiency, impeccable quality and reduced
                  cost.

                  As a means to achieve Campaign goals, each fiscal year (FY), the National Nuclear
                  Security Administration (NNSA) establishes a series of high and low level
                  milestones/deliverables for each of the three major technical efforts that make up the
                  Campaign: High Explosives Manufacturing; Product Requalification; and Science-Based
                  Manufacturing. This work is carried out primarily at the Pantex Plant, located near
                  Amarillo, Texas.

                  The objective of this audit was to determine whether NNSA has met its goals and
                  objectives related to the Campaign.

                  CONCLUSIONS AND OBSERVATIONS

                  In FY 2004, the Campaign will miss a number of lower level milestones. Specifically, we
                  found that due primarily to funding constraints, Pantex will not complete 11 of 24 lower
                  level milestones scheduled for FY 2004. Delays in completing these milestones ranged
                  from 6 to 12 months and involve all three major technical efforts: High Explosives
                  Manufacturing; Product Rcqualification; and Science-Based Manufacturing. In addition, a
                  prior lower level milestone that had been upgraded to a higher level milestone has been
                 Sdelayed for 18 months. These milestones are critical to the capabilities needed to identify
                  and assess weapon components during the lifetime extension.
JUL-12-2004 l        FROn:
                      R:b4                                                  TO:2025860099                P.0083004




                These delays occurred due primarily to budget reductions and inadequate safety
                authorization basis documents. NNSA requested $29 million to complete the FY 2004
                scheduled milestones; however, Congress cut funding for the Campaign to $23.6 million.
                Subsequently, the Campaign experienced an additional reduction when $3.9 million was
                reprogrammed to support the Design Basis Threat Initiative. Consequently, the FY 2004
                Campaign's budget was reduced to $19 million, which caused 11 milestones to be delayed.
                The remaining milestone, to deploy an Integrated Pit Inspection Station in Building 12-116
                by September 2004, was delayed because NNSA has not completed a safety authorization
                basis document to ensure the safety of the operation.

                Inadequate safety authorization basis documentation has been reported on in a number of
                prior Office of Inspector General (OIG) reports. For example, in our report on National
                Nuclear Security Administration'sNuclear Explosive Safety Study Program,DOE/IG-581,
                January 2003, we found that, in a large number of cases, safety authorization basis
                documents either had not been completed or did not meet current requirements, and as a
                result, delayed the completion of nuclear explosive safety studies. The OIG recommended
                a number of actions to address this matter, including requiring rigorous measures and
                evaluations of national laboratory and management and operating contractor performance in
                meeting safety requirements.

                To its credit, NNSA and Pantex have reassessed Campaign requirements and rescheduled
                the missed milestones. With regard to authorization basis documentation, both NNSA and
                Pantex are currently implementing recommendations from prior OIG reports, which should
                aid in correcting this problem. Finally, NNSA officials advised that in the near future, a
                risk assessment will be conducted to measure progress and the effects of missed milestones.
                To further assist in achieving the goals and objectives of the Campaign, we suggest that
                NNSA:

                     *   Conduct a comprehensive review of the Campaign to assess the effects and risk of
                         delayed FY04 milestones;

                     * Prepare a recovery plan which addresses how future milestones will be completed,
                       as well as how the program will progress if additional funding shortfalls occur; and,

                     *   Continue to be vigilant in implementing all prior recommendations that impact the
                         Campaign, in particular those related to authorization basis documents.

                SCOPE AND METHODOLOGY

                The audit was performed from March 1,2004 to June 15, 2004, at NNSA Headquarters,
                Washington, DC; and the Pantex Plant, located near Amarillo, Texas. The scope of the
                audit was limited to determining whether the Campaign was meeting its goals and
                objectives related to high explosive manufacturing.




                                                      2
JUL-12-2004 09:54 FROM:                                                    TO:2025860099                P.004/004




             To accomplish the audit objective, we:

                   *   Reviewed Fcderal requirements related to the Campaign;

                   *   Examined budgetary information associated with performing assigned tasks for
                       the Campaign;

                   *   Reviewed work authorizations to determine contractor assignments;

                   *   Discussed the Campaign with key Headquarters and Pantex officials;

                   . Reviewed performance measures established in accordance with the Government
                     Performance and Results Act; and,

                   *   Determined whether the Campaign met scheduled milestones.

             The audit was performed in accordance with generally accepted Government auditing
             standards for performance audits and included tests of internal controls and compliance
             with laws and regulations to the extent necessary to satisfy the audit objective.

             Accordingly, we assessed the significant internal controls related to the Campaign.
             Because our review was limited, it would not necessarily have identified all internal control
             deficiencies that may have existed. Additionally, we did not rely extensively on computer-
             processed data. In addition, we reviewed the implementation of Government Performance
             and Results Act of 1993, as related to the Campaign.

              Since no recommendations are being made in this Letter Report, a formal response is not
              required. We appreciate the cooperation of your staff during the audit.




                                                      Lawrence R. Ackerly, Division Dir    r
                                                      National Nuclear Security Adminis ation
                                                       Audits Division
                                                      Office ofthe Inspector General

              cc: Director, Policy and Internal Controls Management, NA-66
                  Team Leader, Audit Liaison Team, ME-100




                                                      3
DC: F 1325.8
(08-93)
United States Government                                                              Department of Energy


memorandum
          DATE:    July 9, 2004
   REPLY TO
    ATTN OF:       IG-35 (A04DC008)

     SUBJECT: Final Report Package for "The National Nuclear Security Administration's High
              Explosives Manufacturing and Weapons Assembly/Disassembly Readiness Campaign"

             TO:   Director for Performance Audits and Administration

                   Attached is the required final report package on the subject audit. The pertinent details are:

                   1. Actual Staff days: 63

                      Actual Elapsed days: 130

                   2. Names of OIG and/or contractor audit staff:

                      Assistant Director: David Sedillo
                      Team Leader: Lynda Crowder
                      Auditor-In-Charge: John Wall
                      Audit Staff: Tychelle Young

                   3. Coordination with Investigations and Inspections: Investigations: Reggie France and
                      Inspections: Geoffrey Gray.




                                                          OLawrence Ackerly, Div~ion -re       or
                                                           Office of Audit Services
                                                           Office of Inspector General

                   Attachments:
                   1. Final Report (2) '
                   2. Monetary Impact Report
                   3. Audit Project Summary Report
                   4. Audit Database Information Sheet
                                  MONETARY IMPACT OF REPORT NO.: OAS-L-04-17


1. Title of Audit:           The National Nuclear Security Administration's High Explosives
                             Manufacturing and Weapons Assembly/Disassembly Readiness Campaign

2. Division:                 NNSA Audits Division/Washington Audit Group

3. Project No.:              A04DC008

4. Type of Audit:

        Financial:            _Performance:                                                  X
        Financial Statement                                   Economy and Efficiency
        Financial Related                                     Program Results
        Other (specify type):

 5.
                                                                                               MGT.     POTENTIAL
             FINDING                 BETTER USED                 QUESTIONED COSTS            POSITION    BUDGET
                                                                                                         IMPACT
                                              Recurring
 (A)               (B)               (C)        (D)          (E)           (F)        (G)       (H)        (I)
                   Title            One       Amount      Questioned   Unsupported   Total   C=Concur     Y=Yes
                                    Time        Per        Portion       Portion             N=Noncon     N=No
                                                Year                                          U=Undec
       Audit of NNSA's High                                                          N/A                   No
       Explosives Manufacturing
       Weapons Assembly/
       Disassembly Readiness
       Campaign



TOTALS-ALL FINDINGS


6. Remarks: None

7. Contractor:   None                                     10. Approvals:
8. Contract No.:   None                                         Division Director & D•a-                          7/0
9. Task Order No.:    None                                      Technical Advisor & Date
                                                  Office of the Inspector General                           (OIG)
                                            Audit Project Office                                 Summary (APS)
                                                                                                                                       Page 1
Report run on:                        July 8, 2004 1:55 PM


  Audit#: A04DC008                   Ofc:   CFA     Title: HIGH EXPLOSIVE MANUFACTURING
                                                        s^Sj-          ipg      ^s




                                                   Planned                   End of Survey              Revised            Actual


   Entrance Conference:.....                      01-OCT-03                                           01-MAR-04          01-MAR-04

   Survey: ..................                                                                         15-JUN-04          15-JUN-04

   Draft Report:............
   Completed (With Report):.                      30-SEP-04
   ------------          Elapsed Days:                  365                                                                      130
                                                                                                              Elap. Less Susp:
   Date Suspended:                                                     Date Terminated:
   Date Reactivated:                                                   Date Cancelled:
   DaysSuspended(Cur/Tot):                          (              )Report Number:
   Rpt Title:                                                           Report Type:                        Not Found




   Class:           PER       PERFORMANCE
   Program:         DP2       Not Found
  MgtChall: 005               NATIONAL SECURITY          (F
                                                                                                AD:   152      SEDILLO
   Site:           MSA        MULTI-SITE AUDIT
                                                                                           AIC:. 236           WALL
   SecMiss:        NNS        NATIONAL NUCLEAR SEC                                           r
                                                                                      Team Ldr: 84             CROWDER
   PresInit:                  Not Found                                               Tech Adv: 432            GAMAGE



          Task No:
          Task Order Dt:                                               .CO Tech. Rep:
          Orig Auth Hrs:                                               Orig Auth Costs:
          Current Auth:                                                Current Auth Cost:
          Tot Actl IPR Hr:                                             Tot Actl Cost:


                                                                                             Time.,          e;-           .rg    .I


                       ::EinpACont'Name:,           NumdaVs                          Last:   Date
                         CROWDER, L                              4.3             26-JUN-04
                         YOUNG, T                               19.3                 15-MAY-04
                        WALL, J                                 40.3             26-JUN-04
                          Total:                                63.9

                     ^^*y.S     r'                                               ,
                                                                               ý-_   .ds
                       AUDIT DATABASE INFORMATION SHEET


1. Project No.: A04DC008

2. Title of Audit: The National Nuclear Security Administration's High Explosives
                   Manufacturing and Weapons Assembly/Disassembly Readiness Campaign

3. Report No./Date: OAS-L-04-17/July 9, 2004

4. Management Challenge Area: Stockpile Stewardship

5. Presidential Mgmt Initiative: N/A

6. Secretary Priority/Initiative: N/A

7. Program Code: DP1

8. Location/Sites: Pantex Plant

9. Finding Summary:

       In FY 2004, the High Explosives Campaign will miss a number of lower level milestones.
       Specifically, we found that due primarily to funding constraints, Pantex will not complete
       11 of 24 lower level milestones scheduled for FY 2004. Delays in completing these
       milestones ranged from 6 to 12 months and involve all three major technical efforts: High
       Explosives Manufacturing; Product Requalification; and Science-Based Manufacturing. In
       addition, a prior lower level milestone that had been upgraded to a higher level milestone
       has been delayed for 18 months. These milestones are critical to the capabilities needed to
       identify and assess weapon components during the lifetime extension.

       These delays occurred due primarily to budget reductions and inadequate safety
       authorization basis documents. NNSA requested $29 million to complete the FY 2004
       scheduled milestones; however, Congress cut funding for the campaign to $23.6 million.
       Subsequently, the campaign experienced an additional reduction when $3.9 million was
       reprogrammed to support the Design Basis Threat Initiative. Consequently, the FY 2004
       High Explosives Campaign's budget was reduced to $19 million, which caused 11
       milestones to be delayed. The remaining milestone, to deploy an Integrated Pit Inspection
       Station in Building 12-116 by September 2004, was delayed because NNSA has not
       completed a safety authorization basis document to ensure.the safety of the operation.


10. Keywords:

   *    Product Requalification
   *    High Explosives Manufacturing
   *    Project Planning
   *    Pantex Plant
